Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




COMPARISON OF AVERAGE SALES
    PRICES AND AVERAGE
   MANUFACTURER PRICES:
    AN OVERVIEW OF 2007




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                     OEI-03-08-00450
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                        S U         M M A R Y
Δ    E X E C U T I V E                                    S U M M A R Y


                   OBJECTIVE
                   1. To identify drugs with average sales prices (ASP) that would have
                      exceeded average manufacturer prices (AMP) by at least 5 percent
                      in any quarter of 2007 if the revised ASP payment methodology had
                      been in effect during the entire year.

                   2. To examine the impact of missing or unavailable AMP data on
                      mandated comparisons between ASPs and AMPs in 2007.


                   BACKGROUND
                   Since January 2005, Medicare Part B has been paying for most covered
                   drugs using a reimbursement methodology based on ASPs. In general
                   terms, an ASP is a manufacturer’s sales of a drug to all purchasers in
                   the United States in a calendar quarter divided by the total number of
                   units of the drug sold by the manufacturer in that same quarter, net of
                   any price concessions. Manufacturers report ASPs by national drug
                   codes (NDC) and must provide the Centers for Medicare & Medicaid
                   Services (CMS) with the ASP and volume of sales for each of their NDCs
                   on a quarterly basis. Under the ASP reimbursement methodology,
                   Medicare’s allowance for most Part B drug codes is equal to 106 percent
                   of the volume-weighted ASPs for the drug’s NDCs.
                   By law, the Office of Inspector General (OIG) must compare ASPs with
                   AMPs. As generally defined in statute, the AMP is the average price
                   paid to the manufacturer for the drug in the United States by
                   wholesalers for drugs distributed to the retail pharmacy class of trade.
                   Manufacturers whose drugs are covered by Medicaid must provide CMS
                   with the AMP for each of their NDCs on a quarterly basis as part of the
                   Medicaid drug rebate program.

                   If OIG finds that the ASP for a drug exceeds the AMP by a certain
                   percentage (currently 5 percent), the Secretary of the Department of
                   Health and Human Services (the Secretary) may disregard the ASP for
                   the drug when setting reimbursement and shall substitute the payment
                   amount with the lesser of either the widely available market price or
                   103 percent of the AMP.

                   To date, OIG has issued seven quarterly reports comparing ASPs to
                   AMPs. This current pricing comparison examines data throughout all
                   four quarters of 2007 using a revised ASP payment methodology
                   recently implemented by statute. In December 2007, the Medicare,


 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   i
E X E C U T I V E                        S U         M M A R Y


                   Medicaid, and SCHIP Extension Act of 2007, P.L. No. 110-173, changed
                   the way in which CMS calculates volume-weighted ASPs, effective
                   April 1, 2008.

                   For this study, we obtained ASP and AMP data submitted by
                   manufacturers for the first through fourth quarters of 2007. We
                   calculated a volume-weighted ASP and AMP for each drug in each
                   quarter using CMS’s revised ASP payment methodology. We compared
                   ASPs and AMPs for each quarter in 2007 and identified drug codes that
                   would have met the 5-percent threshold if the revised payment
                   methodology had been in effect throughout the year.
                   In addition, we identified the number of NDCs for which AMP data
                   were missing or unavailable in 2007, as well as the number of drug
                   codes that were removed from OIG’s pricing comparisons because AMPs
                   were missing or unavailable. For the purposes of this study, an AMP
                   was considered “missing” if the manufacturer had a Medicaid rebate
                   agreement in 2007 but did not submit a price for one or more quarters
                   or “unavailable” if the manufacturer did not participate in the Medicaid
                   drug rebate program and was therefore not required to submit AMP
                   data to CMS.


                   FINDINGS
                   If the revised payment methodology had been in effect throughout
                   2007, 71 drug codes would have met the 5-percent threshold in at
                   least one quarter. One-fourth of these drug codes (18 of 71) would have
                   met the 5-percent threshold during multiple quarters of 2007. ASPs for
                   three of these drug codes (J1364, J2690, and Q0169) would have exceeded
                   the AMPs by at least 5 percent in every quarter of 2007.
                   Additional codes may have met the 5-percent threshold in 2007;
                   however, missing or unavailable AMPs prevented OIG from
                   performing pricing comparisons on these codes. A total of
                   1,185 NDCs had no AMP data during one or more quarters of 2007.
                   Manufacturers for almost half of these drug products participated in the
                   Medicaid drug rebate program in 2007 and were therefore generally
                   required to submit AMP data for at least certain of their products.
                   Because some NDCs had missing or unavailable AMPs, the number of
                   pricing comparisons performed in 2007 was reduced by about 25 percent
                   in each of the first and third quarters and by over 40 percent in each of
                   the second and fourth quarters. In fact, OIG was unable to perform any



 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   ii
E X E C U T I V E                        S U         M M A R Y


                   pricing comparisons on 106 drug codes in 2007 because of missing or
                   unavailable AMP data.


                   RECOMMENDATIONS
                   This is OIG’s eighth report comparing ASPs to AMPs. The law directs
                   the Secretary to lower reimbursement amounts for drugs with ASPs
                   that exceed AMPs by at least 5 percent. Although CMS has
                   acknowledged the Secretary’s authority to adjust Part B reimbursement
                   amounts based on the findings of OIG’s pricing comparisons, the agency
                   has yet to make any changes as a result of these studies.
                   Missing or unavailable AMP data have prevented OIG from performing
                   mandated pricing comparisons on some drug codes. Drug
                   manufacturers that fail to provide required AMPs in a timely manner
                   may be subject to administrative action, including civil monetary
                   penalties.

                   Consistent with statutory requirements, we recommend that CMS:
                   Develop a process to adjust payment amounts based on the results
                   of OIG’s pricing comparisons.
                   Subsequently lower Medicare reimbursement amounts for drugs with
                   ASPs that meet the 5-percent threshold specified in section
                   1847A(d)(3) of the Act.
                   Continue to explore and undertake a range of efforts to ensure that
                   drug manufacturers are submitting the required AMP data in a timely
                   manner, including collaborating with OIG about administrative
                   remedies for noncompliance.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation to develop a process for
                   adjusting payment amounts based on the results of OIG’s pricing
                   comparisons. However, CMS did not specifically concur with our
                   recommendation to lower Medicare reimbursement for drugs that meet
                   the 5-percent threshold. Rather, CMS emphasized both the complexity
                   of substituting payment amounts and the importance of proceeding
                   cautiously as it seeks to understand the appropriate threshold
                   percentage for pricing substitutions. In response to our final
                   recommendation, CMS stated that it will continue its efforts to ensure
                   that manufacturers are submitting required AMP data in a timely

 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   iii
R   E C O        M M E N D A T                         I O N        S


                      manner and that it supports adequate enforcement action against those
                      that fail to comply with reporting requirements.

                      OIG acknowledges that CMS must make complex decisions regarding
                      price substitutions for eligible drugs. However, consistent with
                      statutory requirements, we continue to recommend that Medicare
                      reimbursement amounts for eligible codes be lowered pursuant to
                      section 1847A(d)(3) of the Act. OIG will continue to assist CMS, both in
                      developing a timely and effective price substitution policy and in taking
                      appropriate action against manufacturers that fail to comply with
                      AMP-reporting requirements.




    OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
                   Seventy-one drug codes met the 5-percent threshold in at least
                   one quarter of 2007 under the revised payment methodology . . . . 9

                   Missing or unavailable AMP data prevented OIG from
                   performing pricing comparisons . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   Agency Comments and Office of Inspector General Response . . . 13



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   A: Equations Used by the Centers for Medicare & Medicaid
                      Services To Calculate Volume-Weighted Average Sales
                      Prices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                   B: Previous Office of Inspector General Reports Comparing
                      Average Sales Prices and Average Manufacturer Prices. . . . . 16

                   C: Detailed Methodology for Calculating Volume-Weighted
                      Average Sales Prices and Average Manufacturer Prices
                      for 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                   D: Seventy-one Healthcare Common Procedure Coding System
                      Codes With Average Sales Prices That Exceeded Average
                      Manufacturer Prices by at Least 5 Percent in 2007 Under
                      the Revised Payment Methodology . . . . . . . . . . . . . . . . . . . . . 19

                   E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
E X E C U T I V E                        S U         M M A R Y
Δ    I N T R O D U C T I O N


                   OBJECTIVES
                   1. To identify drugs with average sales prices (ASP) that would have
                      exceeded average manufacturer prices (AMP) by at least 5 percent
                      in any quarter of 2007 if the revised ASP payment methodology had
                      been in effect during the entire year.

                   2. To examine the impact of missing or unavailable AMP data on
                      mandated comparisons between ASPs and AMPs in 2007.


                   BACKGROUND
                   Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates
                   that the Office of Inspector General (OIG) compare ASPs with AMPs. If
                   OIG finds that the ASP for a drug exceeds the AMP by a certain
                   percentage (currently 5 percent), section 1847A(d)(3)(A) of the Act states
                   that the Secretary of the Department of Health and Human Services
                   (the Secretary) may disregard the ASP for the drug when setting
                   reimbursement amounts. Section 1847A(d)(3)(C) of the Act goes on to
                   state that “. . . the Inspector General shall inform the Secretary (at
                   such times as the Secretary may specify to carry out this subparagraph)
                   and the Secretary shall, effective as of the next quarter, substitute for
                   the amount of payment . . . the lesser of (i) the widely available market
                   price . . . (if any); or (ii) 103 percent of the average manufacturer
                   price . . . .”

                   To date, OIG has issued seven quarterly comparisons of ASPs and
                   AMPs, including one for each quarter of 2007. This current report
                   examines data throughout all four quarters of 2007 using a revised ASP
                   payment methodology recently implemented by the Medicare, Medicaid,
                   and SCHIP Extension Act of 2007 (Extension Act), P.L. No. 110-173.
                   Medicare Part B Coverage of Prescription Drugs
                   Medicare Part B covers only a limited number of outpatient prescription
                   drugs. Covered drugs include injectable drugs administered by a
                   physician; certain self-administered drugs, such as oral anticancer
                   drugs and immunosuppressive drugs; drugs used in conjunction with
                   durable medical equipment; and some vaccines.
                   Medicare Part B Payments for Prescription Drugs
                   The Centers for Medicare & Medicaid Services (CMS) contracts with
                   private companies, known as carriers, to process and pay Medicare
                   Part B claims, including those for prescription drugs. To obtain
                   reimbursement for covered outpatient prescription drugs, physicians

 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   1
I N T R O D        U C T             I O N


                    and suppliers submit claims to their carriers using procedure codes.
                    CMS established the Healthcare Common Procedure Coding System
                    (HCPCS) to provide a standardized coding system for describing the
                    specific items and services provided in the delivery of health care. In
                    the case of prescription drugs, each HCPCS code defines the drug name
                    and dosage size but does not specify manufacturers or package sizes.

                    Medicare and its beneficiaries spent about $11 billion for Part B drugs
                    in 2007. 1 Although Medicare paid for more than 675 outpatient
                    prescription drug HCPCS codes that year, most of the spending for
                    Part B drugs was concentrated on a relatively small subset of those
                    codes. In 2007, 55 codes accounted for 90 percent of the expenditures
                    for Part B drugs, with only 12 of these drugs representing half of the
                    total Part B drug expenditures.
                    Reimbursement Methodology for Part B Drugs and Biologicals
                    Since January 2005, Medicare Part B has been paying for most covered
                    drugs using a reimbursement methodology based on ASPs. 2 Section
                    1847A(c) of the Act, as added by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003, P.L. No. 108-173, defines
                    an ASP as a manufacturer’s sales of a drug to all purchasers in the
                    United States in a calendar quarter divided by the total number of units
                    of the drug sold by the manufacturer in that same quarter. The ASP is
                    net of any price concessions, such as volume discounts, prompt pay
                    discounts, cash discounts, free goods contingent on purchase
                    requirements, chargebacks, and rebates other than those obtained
                    through the Medicaid drug rebate program. 3 Sales that are nominal in
                    amount are exempted from the ASP calculation, as are sales excluded
                    from the determination of “best price” in the Medicaid drug rebate
                    program. 4 5


                    1 Figure based on CMS’s 2007 Part B Extract and Summary System data, which were
                    90 percent complete at the time of extraction (March 2008).
                    2 In 2004, the reimbursement amount for most covered drugs was based on 85 percent of
                    the average wholesale price as published in national pricing compendia, such as the “Red
                    Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the lower of
                    either the billed amount or 95 percent of the average wholesale price.
                    3 Section 1847A(c)(3) of the Act.
                    4 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                    maintenance organization, nonprofit entity, or governmental entity within the United
                    States, with certain exceptions.
                    5 Section 1847A(c)(2) of the Act.




 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                            2
I N T R O D        U C T             I O N


                    Manufacturers report ASPs by national drug codes (NDC), which are
                    11-digit identifiers that indicate the manufacturer, product dosage form,
                    and package size of the drug. Manufacturers must provide CMS with
                    the ASP and volume of sales for each NDC on a quarterly basis, with
                    submissions due 30 days after the close of each quarter. 6
                    Because Medicare Part B reimbursement for outpatient drugs is based
                    on HCPCS codes rather than NDCs and more than one NDC may meet
                    the definition of a particular HCPCS code, CMS has developed a file
                    that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                    information in this crosswalk to calculate volume-weighted ASPs for
                    covered HCPCS codes.
                    Calculation of Volume-Weighted Average Sales Prices
                    To calculate volume-weighted ASPs, CMS uses an equation that
                    involves the following variables: the ASP for the 11-digit NDC as
                    reported by the manufacturer, the volume of sales for the NDC as
                    reported by the manufacturer, and the number of billing units in the
                    NDC as determined by CMS. The amount of the drug contained in an
                    NDC may differ from the amount of the drug specified by the HCPCS
                    code that providers use to bill Medicare. Therefore, the number of
                    billing units in an NDC describes the number of HCPCS code units that
                    are in that NDC. For instance, an NDC may contain a total of
                    10 milliliters of Drug A, but the corresponding HCPCS code may be
                    defined as only 5 milliliters of Drug A. In this case, there are two billing
                    units in the NDC. CMS calculates the number of billing units in each
                    NDC when developing its crosswalk files.

                    Prior to April 2008, CMS calculated volume-weighted ASPs using the
                    equation presented in Appendix A. However, section 112(a) of the
                    Extension Act changed section 1847A(b) of the Act to require that CMS
                    compute volume-weighted ASPs using a revised methodology, effective
                    April 2008. This revised methodology was initially proposed by OIG in
                    a February 2006 report entitled “Calculation of Volume-Weighted
                    Average Sales Price for Medicare Part B Prescription Drugs”
                    (OEI-03-05-00310). The revised equation for calculating
                    volume-weighted ASPs is also provided in Appendix A.
                    Under the ASP pricing methodology, the Medicare reimbursement for
                    most Part B drugs is equal to 106 percent of the volume-weighted ASP


                    6 Section 1927(b)(3) of the Act.




 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007    3
I N T R O D        U C T             I O N


                    for the HCPCS code. 7 However, there is a two-quarter lag between the
                    sales period for which ASPs are reported and the effective date of the
                    reimbursement amounts. For example, ASPs from the first quarter of
                    2007 were used to establish reimbursement amounts for the third
                    quarter of 2007, and ASPs from the fourth quarter of 2007 were used to
                    establish reimbursement for the second quarter of 2008.

                    As a result of this lag period, the methodological changes that went into
                    effect in April 2008 were applied to ASP data from two quarters prior,
                    i.e., the fourth quarter of 2007. In other words, CMS used more than
                    one methodology to volume-weight ASP data submitted by
                    manufacturers for 2007. The ASP submissions from the first through
                    third quarters of 2007 were volume-weighted using the previous ASP
                    payment methodology, whereas fourth-quarter ASP submissions were
                    volume-weighted using the revised methodology.
                    The Medicaid Drug Rebate Program and Average Manufacturer Prices
                    For Federal payment to be available for covered outpatient drugs
                    provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                    mandate that drug manufacturers enter into rebate agreements with
                    the Secretary and pay quarterly rebates to State Medicaid agencies.
                    Under these rebate agreements and pursuant to section 1927(b)(3) of
                    the Act, manufacturers must provide CMS with the AMP for each of
                    their NDCs on a quarterly basis, with submissions due 30 days after the
                    close of each quarter. 8
                    As generally defined in section 1927(k)(1) of the Act, the AMP is the
                    average price paid to the manufacturer for the drug in the United
                    States by wholesalers for drugs distributed to the retail pharmacy class
                    of trade. Prior to the passage of the DRA, manufacturers were required
                    to deduct customary prompt pay discounts when calculating AMPs.
                    However, section 6001(c)(1) of the DRA amended section 1927(k)(1) of
                    the Act, such that AMPs must be determined without regard to
                    customary prompt pay discounts, effective January 2007. In December
                    2006, CMS instructed manufacturers to exclude customary prompt pay



                    7 Medicare beneficiaries are responsible for 20 percent of this amount in the form of
                    coinsurance.
                    8 Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171,
                    changed section 1927(b) of the Act to require that manufacturers also report AMPs on a
                    monthly basis, effective January 2007. Drug manufacturers will continue to report
                    quarterly AMP data in addition to their monthly submissions.



 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                     4
I N T R O D        U C T             I O N


                    discounts from their AMP calculations as of January 2007. 9 In July
                    2007, CMS published a final rule that, among other things, implements
                    section 6001(c)(1) of the DRA and clarifies the way in which the AMP
                    must be calculated. 10 Specifically, 42 CFR § 447.504 of the final
                    regulation clarifies the manner in which the AMP is to be determined. 11
                    The AMP is generally calculated as a weighted average of prices for all
                    of a manufacturer’s package sizes of a drug sold during a given quarter
                    and is reported for the lowest identifiable quantity of the drug (e.g.,
                    1 milligram, 1 milliliter, 1 tablet, 1 capsule).

                    If a manufacturer fails to provide AMP data in a timely manner, civil
                    monetary penalties may be imposed. 12 In addition, pursuant to section
                    1927(b)(4)(B) of the Act, the Secretary may terminate a rebate
                    agreement “for violation of the requirements of the agreement or other
                    good cause shown.” CMS has taken actions to terminate manufacturers
                    for failure to report drug pricing data as required by section 1927 of the
                    Act. CMS has also provided OIG with information about manufacturers
                    that failed to submit drug pricing data for the purposes of evaluating
                    potential civil monetary penalty actions.
                    Office of Inspector General’s Monitoring of Average Sales Prices and
                    Average Manufacturer Prices
                    Since the ASP reimbursement methodology for Part B prescription
                    drugs was implemented in January 2005, OIG has issued seven reports
                    comparing ASPs and AMPs. A list of the seven previously issued
                    reports is provided in Appendix B.

                    Four of OIG’s seven pricing comparisons used ASP and AMP data from
                    2007, with one report issued for each of the quarters in the calendar
                    year. 13 Reports comparing first through third-quarter ASPs and AMPs


                    9 Medicaid Drug Rebate Program Bulletin for Participating Drug Manufacturers, Release
                    No. 76, December 15, 2006.
                    10 72 Fed. Reg. 39142 (July 17, 2007).
                    11 In December 2007, the United States District Court for the District of Columbia
                    preliminarily enjoined the implementation of the regulation for certain purposes not
                    relevant to this report. Section 203 of the Medicare Improvements for Patients and
                    Providers Act of 2008 also delayed the implementation of certain aspects of the regulation
                    and the DRA requirements. Again, those aspects are not relevant for the purposes of this
                    report.
                    12 Pursuant to section 1927(b)(3)(C) of the Act.
                    13 OEI-03-07-00530, September 2007; OEI-03-08-00010, December 2007; OEI-03-08-00130,
                    May 2008; and OEI-03-08-00340, August 2008.



 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                         5
I N T R O D        U C T             I O N


                    used CMS’s previous method for volume-weighting data. The report
                    comparing fourth-quarter ASPs and AMPs used the revised method for
                    volume-weighting data.

                    Although CMS has acknowledged the Secretary’s authority to adjust
                    ASP payment limits based on the findings of OIG’s pricing comparisons,
                    the agency has yet to make any changes to Part B drug reimbursement
                    as a result of these studies. In commenting on one of OIG’s reports,
                    CMS expressed a desire to better understand fluctuating differences
                    between ASPs and AMPs, with the intent of developing a process to
                    adjust payment amounts based on the results of OIG’s pricing
                    comparisons. 14 However, CMS has not specified what, if any, steps it
                    will take to adjust Medicare reimbursement amounts for drugs that
                    meet the 5-percent threshold specified in section 1847A(d)(3) of the Act.

                    This current report is OIG’s first annual overview of ASPs and AMPs,
                    and it examines data across all four quarters of 2007 using a revised
                    ASP payment methodology recently implemented by CMS.

                    OIG will continue to issue reports based on quarterly pricing
                    comparisons, along with annual overviews to summarize findings across
                    each calendar year.


                    METHODOLOGY
                    We obtained from CMS NDC-level ASP data from the first through
                    fourth quarters of 2007, which were used to establish Part B drug
                    reimbursement amounts for the third quarter of 2007 through the
                    second quarter of 2008, respectively. In addition, we obtained the files
                    that CMS used to crosswalk NDCs to their corresponding HCPCS codes.
                    We also obtained AMP data from CMS for the first through fourth
                    quarters of 2007. 15
                    Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for 2007
                    Using the Revised ASP Payment Methodology
                    As mentioned previously, Medicare does not base reimbursement for
                    covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS


                    14 OEI-03-07-00140, July 2007.
                    15 ASP data from the first through fourth quarters of 2007 were current as of June 2007,
                    September 2007, December 2007, and March 2008, respectively. AMP data from the first
                    through fourth quarters of 2007 were current as of May 2007, September 2007, November
                    2007, and February 2008, respectively.



 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                       6
I N T R O D        U C T             I O N


                    uses ASP information submitted by manufacturers for each NDC to
                    calculate a volume-weighted ASP for each covered HCPCS code.

                    Because pricing data in the fourth quarter of 2007 were
                    volume-weighted differently than in the other three quarters of 2007,
                    results of OIG’s separate pricing comparisons from each of the four
                    quarters could not be readily combined and summarized for this 2007
                    calendar year overview. To address this issue, and to establish a more
                    useful and consistent benchmark for comparisons of ASPs and AMPs
                    over time, OIG opted to conduct its yearend overview using only the
                    revised payment methodology. 16 To that end, it was necessary to
                    recalculate volume-weighted ASPs and AMPs for the first through third
                    quarters of 2007 using the revised payment methodology. Therefore,
                    the results presented in this 2007 overview may differ from the results
                    presented in each of the separate quarterly reports previously published
                    by OIG.

                    Appendix C provides a more detailed description of the methods we used
                    to calculate volume-weighted ASPs and AMPs.

                    For each quarter of 2007, we compared the volume-weighted ASPs and
                    AMPs calculated under the revised payment methodology and identified
                    HCPCS codes with ASPs that exceeded the AMPs by at least 5 percent.

                    For those HCPCS codes that met or exceeded the 5-percent threshold,
                    we conducted a review of the associated NDCs to verify the accuracy of
                    the billing unit information for the quarter(s) in which the threshold
                    was met. If HCPCS codes had potentially inaccurate billing units, we
                    did not include them in our findings.

                    To identify codes with ASPs that exceeded AMPs by at least 5 percent in
                    one or more quarters of 2007, we then merged the results of the pricing
                    comparisons from all four quarters.
                    Analysis of Average Manufacturer Price Data That Were Missing or
                    Unavailable in 2007
                    We examined the number of NDCs for which manufacturers submitted
                    ASP data but not AMP data, both in each quarter and across all four


                    16Although this report applies the revised methodology to all four quarters of 2007, CMS
                    was not required by law to calculate reimbursement using the revised method until the
                    second quarter of 2008. Because second-quarter 2008 reimbursement amounts were
                    calculated using ASP data from the fourth quarter of 2007, CMS was only required to apply
                    the new methodology to ASP data beginning with the fourth quarter of 2007.



 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                       7
I N T R O D        U C T             I O N


                    quarters of 2007. We also identified the number of drug codes that were
                    removed from OIG’s pricing comparisons because AMP data were either
                    missing or unavailable. For the purposes of this study, an AMP was
                    considered “missing” if the manufacturer had a Medicaid rebate
                    agreement in 2007 but did not submit a price for one or more quarters.
                    An AMP was considered “unavailable” for an NDC if the manufacturer
                    did not participate in the Medicaid drug rebate program and was
                    therefore not required to submit AMP data to CMS.

                    To determine whether a manufacturer participated in the Medicaid
                    drug rebate program in 2007, we consulted the list of participating drug
                    companies posted on CMS’s Web site.
                    Limitations
                    We did not verify the accuracy of manufacturer-reported ASP and AMP
                    data, nor did we verify the underlying methodology used by
                    manufacturers to calculate ASPs and AMPs.

                    Manufacturers are required to submit their quarterly ASP and AMP
                    data to CMS 30 days after the close of the quarter. Our analyses were
                    performed on ASP and AMP data compiled by CMS soon after that
                    deadline. We did not determine whether manufacturers provided any
                    revised and/or missing data to CMS at a later date.

                    Furthermore, the definition of AMP changed in January 2007, such that
                    AMPs must now be determined without regard to customary prompt
                    pay discounts. 17 Because manufacturers are still required to include
                    customary prompt pay discounts in their ASP calculations, the dynamic
                    between ASPs and AMPs may be different in this report as compared to
                    that in OIG reports using prices submitted prior to 2007.
                    Standards
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency and the Executive Council on Integrity and
                    Efficiency.




                    17 Section 1927(k)(1) of the Act (as amended by section 6001(c)(1) of the DRA) and Medicaid

                    Drug Rebate Program Bulletin for Participating Drug Manufacturers, Release No. 76,
                    December 15, 2006.



 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                      8
Δ    F I N D I N G S

If the revised payment methodology had been               In April 2008, CMS began
      in effect throughout 2007, 71 drug codes            volume-weighting ASP data
                                                          using a revised methodology
        would have met the 5-percent threshold
                                                          mandated by section 112(a) of the
                         in at least one quarter
                                                          Extension Act. 18 If this revised
                   payment methodology had been used to volume-weight pricing data
                   from the first through fourth quarters of 2007, ASPs for 71 HCPCS
                   codes would have exceeded the AMPs by at least 5 percent in at least
                   one quarter.

                   Appendix D presents a list of the 71 HCPCS codes, along with the
                   quarter(s) in which each would have met the 5-percent threshold under
                   the revised payment methodology.
                   One-fourth of these drug codes (18 of 71) would have met the 5-percent
                   threshold during multiple quarters of 2007
                   If the revised payment methodology had been in effect for all of 2007,
                   ASPs for three HCPCS codes (J1364, J2690, and Q0169) would have
                   exceeded the AMPs by at least 5 percent in every quarter. An
                   additional three HCPCS codes would have met the 5-percent threshold
                   in three of the four quarters. For another 12 HCPCS codes, ASPs would
                   have exceeded AMPs by at least 5 percent in two quarters.



               Additional codes may have met the               In comparing ASPs to AMPs,
                                                               OIG typically examines only
 5-percent threshold in 2007; however, missing or
                                                               those HCPCS codes with
unavailable AMPs prevented OIG from performing
                                                               AMP data for every NDC
             pricing comparisons on these codes                that was used to establish
                                                               the Medicare reimbursement
                   amount. Therefore, missing or unavailable AMP data can significantly
                   reduce the number of drug codes that are evaluated pursuant to
                   sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act. For the purposes of
                   this study, an AMP was considered “missing” if the manufacturer had a
                   Medicaid rebate agreement in 2007 but did not submit a price for one or
                   more quarters. An AMP was considered “unavailable” for an NDC if the



                   18 There is a two-quarter lag between the sales period for which ASPs are reported and the
                   effective date of reimbursement amounts based on those ASPs. Therefore, the
                   methodological changes that went into effect in April 2008 were applied by CMS to ASP
                   data from two quarters prior (i.e., the fourth quarter of 2007).



 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                         9
F   I N D I N G        S


                      manufacturer did not participate in the Medicaid drug rebate program
                      and was therefore not required to submit AMP data to CMS.
                      Almost half of NDCs without AMP data belonged to manufacturers with
                      Medicaid drug rebate agreements
                      A total of 1,185 NDCs had no AMP data during one or more quarters of
                      2007. Manufacturers for almost half of these NDCs (529 of 1,185)
                      participated in the Medicaid drug rebate program in 2007 and were
                      therefore generally required to submit AMP data. 19 For 14 percent of
                      these NDCs (74 of 529), manufacturers did not submit AMP data for
                      any quarter of 2007. The majority (52 percent) of the 529 NDCs with
                      missing AMP data belonged to two manufacturers.

                      Manufacturers for the remaining 656 of 1,185 NDCs did not participate in
                      the Medicaid drug rebate program in 2007 and therefore were not required
                      to submit AMP data during that time.
                      As a result of NDCs without AMP data, the number of pricing comparisons
                      performed in 2007 was reduced by at least 25 percent
                      In 2007, the number of NDCs with ASPs but no AMPs fluctuated from
                      quarter to quarter, with the second and fourth quarters having more
                      NDCs without AMPs. In the first and third quarters of 2007, about
                      one-fourth of HCPCS codes were excluded from OIG’s pricing
                      comparisons because AMP data were missing or unavailable for one or
                      more of the associated NDCs. 20 In the second and fourth quarters of
                      2007, over 40 percent of HCPCS codes were excluded from OIG’s pricing
                      comparisons because AMP data were missing or unavailable. Table 1
                      on the next page lists the number of NDCs without AMP data in each
                      quarter, as well as the number and percentage of HCPCS codes that
                      were excluded from our analysis as a result of NDCs without AMPs.




                      19 Although manufacturers with rebate agreements are generally required to submit AMP
                      data, there may be valid reasons as to why AMP data were not provided for a specific NDC
                      in a given quarter. For example, a manufacturer may not necessarily be required to submit
                      an AMP if the drug product has been terminated and there was no Medicaid drug
                      utilization during the quarter.
                      20 Relative to the total number of HCPCS codes in each quarter with Medicare
                      reimbursement amounts based on the ASP payment methodology.



    OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                   10
F    I N D I N G               S


     Table 1. Impact of NDCs Without AMP Data on Quarterly Comparisons of ASPs to AMPs

                                                                                                                  Percentage of
                                       Number of NDCs With                     Number of HCPCS Codes
                                                                                                         HCPCS Codes Excluded
                                              ASP Data but                        Excluded Because of
                                                                                                                    Because of
      Quarter in 2007                         No AMP Data                       NDCs Without AMP Data
                                                                                                         NDCs Without AMP Data

      First Quarter                                                 653                            141                     27%
                       Missing                                      102
                  Unavailable                                       551
      Second Quarter                                                880                            211                     41%
                       Missing                                      355
                  Unavailable                                       525
      Third Quarter                                                 603                            138                     26%
                       Missing                                      100
                  Unavailable                                       503
      Fourth Quarter                                               1051                            237                     45%
                       Missing                                      487
                  Unavailable                                       564

     Source: OIG analysis of ASP and AMP data from the first through fourth quarters of 2007.




                            As a result of NDCs without AMP data, no pricing comparisons were
                            performed on over 100 drug codes in 2007
                            Because of NDCs without AMP data, a total of 268 different HCPCS
                            codes were excluded from OIG’s pricing comparisons during one or more
                            quarters of 2007. For 106 of these codes, we were unable to perform any
                            pricing comparisons for the entire year because AMPs were missing or
                            unavailable for one or more of the associated NDCs.




    OEI-03-08-00450         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                          11
Δ   R E C O M M E N D A T I O N S

                  This is OIG’s eighth report comparing ASPs to AMPs since the ASP
                  reimbursement methodology for Part B prescription drugs took effect in
                  January 2005. Section 1847A(d)(3)(C) of the Act directs the Secretary to
                  lower reimbursement amounts for drugs with ASPs that exceed AMPs
                  by at least 5 percent. Although CMS has acknowledged the Secretary’s
                  authority to adjust Part B reimbursement amounts based on the
                  findings of OIG’s pricing comparisons, the agency has yet to make any
                  changes as a result of these studies. In addition, CMS has not specified
                  the process by which it will make reimbursement adjustments for drugs
                  that meet the 5-percent threshold.

                  This current study, which summarizes data across all four quarters of
                  2007, identifies 71 drug codes that would have been eligible for price
                  adjustment if CMS’s revised ASP payment methodology had been in
                  effect throughout 2007. One-fourth of the 71 drug codes would have met
                  the 5-percent threshold during multiple quarters of 2007.

                  Additional codes may have been eligible for price adjustments based on
                  data from 2007; however, missing and unavailable AMPs prevented
                  OIG from performing pricing comparisons on at least 25 percent of codes
                  in each quarter. Manufacturers for almost half of the NDCs without
                  AMPs participated in the Medicaid drug rebate program in 2007 and
                  were therefore generally expected to submit AMP data.

                  Consistent with statutory requirements, we recommend that CMS:
                  Develop a Process To Adjust Payment Amounts Based on the Results of
                  OIG’s Pricing Comparisons
                  CMS could specify the circumstances under which it will make
                  adjustments, the time period(s) to which the adjustments would apply,
                  and the length of time the adjustments will remain in effect.
                  Subsequently Lower Medicare Reimbursement Amounts for Drugs With
                  ASPs That Meet the 5-Percent Threshold Specified in Section 1847A(d)(3) of
                  the Act
                  CMS may want to focus specifically on those drugs that, according to
                  OIG’s yearend review, would have met the 5-percent threshold in
                  multiple quarters.




OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   12
R   E C O        M M E N D A T                         I O N        S


                      Continue To Explore and Undertake a Range of Efforts To Ensure That Drug
                      Manufacturers Are Submitting the Required AMP Data in a Timely Manner,
                      Including Collaborating With OIG About Administrative Remedies for
                      Noncompliance
                      CMS should continue to evaluate and pursue appropriate actions against
                      those manufacturers that fail to submit required data. This may include
                      termination actions and referrals to OIG for the pursuit of civil monetary
                      penalty actions. In doing so, CMS could focus on those manufacturers
                      with either a relatively large percentage of missing AMP data or
                      manufacturers that consistently fail to submit AMP data by the statutory
                      deadline.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendation to develop a process for
                      adjusting payment amounts based on the results of OIG’s pricing
                      comparisons. However, CMS did not specifically concur with our
                      recommendation to lower Medicare reimbursement for drugs that meet
                      the 5-percent threshold specified in section 1847A(d)(3) of the Act.
                      Rather, CMS emphasized both the complexity of substituting payment
                      amounts and the importance of proceeding cautiously as it seeks to
                      understand the appropriate threshold percentage for pricing
                      substitutions. CMS expressed a desire to better understand differences
                      between ASPs and AMPs, as well as to engage stakeholders
                      (particularly drug manufacturers affected by potential price
                      substitutions) and provide adequate notice when developing its pricing
                      substitution policies. In response to our final recommendation, CMS
                      stated that it will continue its efforts to ensure that manufacturers are
                      submitting required AMP data in a timely manner and that it supports
                      adequate enforcement action against those that fail to comply with
                      reporting requirements.

                      OIG acknowledges that CMS must make complex decisions regarding
                      price substitutions for eligible drugs, including the circumstances under
                      which substitutions will be made, the effective date of such
                      substitutions, and the time period for which the substitutions will
                      remain in effect. However, consistent with statutory requirements, we
                      continue to recommend that Medicare reimbursement amounts for
                      eligible codes be lowered pursuant to section 1847A(d)(3) of the Act,
                      particularly for codes that meet the threshold percentage in multiple
                      quarters. OIG will continue to assist CMS, both in developing a timely

    OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   13
R   E C O        M M E N D A T                         I O N        S


                      and effective price substitution policy and in taking appropriate action
                      against manufacturers that fail to comply with AMP-reporting
                      requirements.

                      For the full text of CMS’s comments, see Appendix E.




    OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   14
Δ   A P P E N D I X                                    ~       A

          Equations Used by the Centers for Medicare & Medicaid Services To
          Calculate Volume-Weighted Average Sales Prices
          In the following equations, a “billing unit” is defined as the number of Healthcare
          Common Procedure Coding System (HCPCS) code units that are contained in a
          national drug code (NDC).



          1. The Revised Equation Used by the Centers for Medicare & Medicaid Services
             (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP) Beginning
             April 1, 2008



              Volume-Weighted ASP                                   Sum of (ASP for NDC * Number of NDCs Sold)
                                       =
               for the Billing Unit of
                   HCPCS Code                                   Sum of (Number of NDCs Sold * Billing Units in NDC)




          2. The Equation Used by CMS To Calculate Volume-Weighted ASPs Prior to
             April 1, 2008



                                                                           ASP for NDC         * Number of NDCs Sold
              Volume-Weighted ASP                          Sum of
                                                                        Billing Units in NDC
               for the Billing Unit of
                   HCPCS Code          =
                                                                                  Sum of Number of NDCs Sold




OEI-03-08-00450       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                             15
Δ   A P P E N D I X                                    ~        B

          Previous Office of Inspector General Reports Comparing Average Sales
          Prices and Average Manufacturer Prices


                        “Monitoring Medicare Part B Drug Prices: A Comparison of Average
                         Sales Prices to Average Manufacturer Prices” (OEI-03-04-00430),
                         April 2006.


                        “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for Second
                         Quarter 2006” (OEI-03-06-00370), July 2006.


                        “Comparison of Third-Quarter 2006 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for First
                         Quarter 2007” (OEI-03-07-00140), July 2007.


                        “Comparison of First-Quarter 2007 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for Third
                         Quarter 2007” (OEI-03-07-00530), September 2007.


                        “Comparison of Second-Quarter 2007 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                         Quarter 2007” (OEI-03-08-00010), December 2007.


                        “Comparison of Third-Quarter 2007 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for First
                         Quarter 2008” (OEI-03-08-00130), May 2008.


                        “Comparison of Fourth-Quarter 2007 Average Sales Prices to Average
                         Manufacturer Prices: Impact on Medicare Reimbursement for Second
                         Quarter 2008” (OEI-03-08-00340), August 2008.




OEI-03-08-00450       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   16
I N T R O D        U C T             I O N
Δ    A P P E N D I X                                 ~        C

           Detailed Methodology for Calculating Volume-Weighted Average Sales Prices
           and Average Manufacturer Prices for 2007
                    Before computing quarterly volume-weighted average sales prices (ASP)
                    and average manufacturer prices (AMP) for 2007, it was necessary to
                    identify the national drug codes (NDC) that should be included in each
                    quarter’s calculations and convert AMPs so that they would be
                    comparable to ASPs.
                    Analysis of 2007 ASPs
                    When calculating volume-weighted ASPs under the revised ASP
                    payment methodology, we included only those NDCs that the Centers
                    for Medicare & Medicaid Services (CMS) deemed valid in each quarter
                    of 2007. We did not examine NDCs that CMS opted to exclude from its
                    own calculation of volume-weighted ASPs each quarter, nor did we
                    verify the accuracy of CMS’s crosswalk files.
                    Analysis of 2007 AMPs
                    An AMP is reported for the lowest identifiable quantity of the drug
                    contained in the NDC (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                    In contrast, an ASP is reported for the entire amount of the drug
                    contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To ensure
                    that AMPs would be comparable to ASPs, it was necessary to convert
                    the AMPs for each NDC in each quarter so that they represented the
                    total amount of the drug contained in that NDC.

                    In making these conversions, we examined AMPs only for those
                    NDCs that CMS used in its calculation of volume-weighted ASPs for a
                    given quarter. If AMP data were not available for one or more of these
                    NDCs, we excluded the corresponding Healthcare Common Procedure
                    Coding System (HCPCS) code from our analysis of that quarter’s data.

                    For each quarter, we then multiplied the AMPs for the remaining NDCs
                    by the total amount of the drug contained in each NDC, as identified by
                    sources such as the CMS crosswalk file, manufacturer Web sites, the
                    “Red Book,” and the Food and Drug Administration’s NDC directory.
                    We will refer to the resulting amounts as converted AMPs. If we could
                    not successfully identify the amount of the drug reflected by the ASP in
                    a given quarter and therefore could not calculate a converted AMP, we
                    excluded the corresponding HCPCS codes from our analysis of that
                    quarter.




 OEI-03-08-00450    C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007    17
A   P   P E N D       I X            ~           C


                      Using the converted AMPs for the remaining NDCs, we then calculated
                      the quarterly volume-weighted AMP for each of the codes, consistent
                      with the revised methodology for calculating volume-weighted ASPs.




    OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   18
ΔA AAP PPP PEP ENE NDN DI D XI I XX~
Δ                                                         ~~
                                                            D
                                                                    DE



              Seventy-one Healthcare Common Procedure Coding System Codes With
              Average Sales Prices That Exceeded Average Manufacturer Prices by at
              Least 5 Percent in 2007 Under the Revised Payment Methodology
                                                    Quarter(s) in Which the Codes Met the 5-Percent Threshold


                 HCPCS                                 First                Second                Third          Fourth
                 Code                                Quarter                Quarter             Quarter         Quarter
                 J1364                                    X                       X                   X               X
                 J2690                                          X                   X                X               X
                 Q0169                                          X                   X                X               X
                 J2800                                          X                   X                X
                 J7505                                          X                   X                X
                 J1120                                                              X                X               X
                 J1457                                          X                   X
                 J1756                                          X                   X
                 J1790                                          X                   X
                 J2321                                          X                   X
                 J2440                                          X                   X
                 J9065                                          X                                    X
                 J9250                                          X                                    X
                 J9260                                          X                                    X
                 J0476                                                              X                X
                 J2370                                                              X                X
                 J3315                                          X                                                    X
                 J2760                                                              X                                X
                 J0456                                          X
                 J0770                                          X
                 J0780                                          X
                 J1940                                          X
                 J2545                                          X
                 J3230                                          X
                 J3410                                          X
                 J3475                                          X
                 J7608                                          X
                 J8530                                          X
                 J8560                                          X
                 J9060                                          X
                 J9062                                          X
                 J9360                                          X
                 Q0171                                          X
                 Q0172                                          X
                 J0280                                                              X
                 J0637                                                              X
                 J2060                                                              X


    OEI-03-08-00450      C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                             19
A   P   P E N D           I X               ~          D




                                                 Quarter(s) in Which the Codes Met the 5-Percent Threshold


             HCPCS                                  First                Second                Third          Fourth
             Code                                 Quarter                Quarter             Quarter         Quarter
             J3070                                                               X
             J3465                                                               X
             J9175                                                               X
             J9340                                                               X
             J0210                                                                                X
             J0636                                                                                X
             J0800                                                                                X
             J1240                                                                                X
             J1580                                                                                X
             J1800                                                                                X
             J1840                                                                                X
             J1850                                                                                X
             J2150                                                                                X
             J2430                                                                                X
             J2560                                                                                X
             J2675                                                                                X
             J2700                                                                                X
             J2730                                                                                X
             J3000                                                                                X
             J7500                                                                                X
             J7620                                                                                X
             J7631                                                                                X
             J7669                                                                                X
             J9050                                                                                X
             J9190                                                                                X
             J9208                                                                                X
             Q0175                                                                                X
             Q0176                                                                                X
             J0300                                                                                                X
             J1270                                                                                                X
             J1441                                                                                                X
             J1626                                                                                                X
             J2505                                                                                                X
             Q0168                                                                                                X

          Source: Office of Inspector General’s analysis of ASP and AMP data from the first through fourth quarters of
          2007.




OEI-03-08-00450       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007                             20
Δ     A P P E N D I X                                ~        E

Agency Comments




  OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   21
A P P E N D        I X            ~           E




 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   22
A P P E N D        I X            ~           E




 OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   23
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.

                  Lauren McNulty served as the team leader for this study. Central office
                  staff who contributed to this report include Kevin Manley.




OEI-03-08-00450   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2007   24
